No. 20-1613

IN THE SUPREME COURT OF THE UNITED STATES
JOHN WAYNE COLLINS,
Petitioner,
v.
JAMES DAVID GREEN, WARDEN,
Respondent.
Certificate of Service
As a member of the bar of this Court, and per agreement with Counsel of
Record for Petitioner, I hereby certify that on this 14th day of July, 2021, I served
via electronic mail (by consent) a copy of the Respondent’s Brief in Opposition on:
Edward Williams
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Ave., N.W.
Washington, D.C. 20006
(202) 663-6000
ed.williams@wilmerhale.com
Counsel of Record for Petitioner
I further certify that all parties required to be served have been served.
/s/ James Havey
James Havey
Assistant Attorney General
Counsel of Record
Office of the Solicitor General
Criminal Appeals Unit
1024 Capital Center Drive, Suite 200
Frankfort, KY 40601
(502) 696-5342
james.havey@ky.gov

